TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Controls Need to Be Strengthened
                     to Ensure the Modernized e-File Project
                             Meets Its Expectations



                                         September 2005

                              Reference Number: 2005-20-103




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 20, 2005


MEMORANDUM FOR CHIEF INFORMATION OFFICER



FROM:                         Pamela J. Gardiner
                              Deputy Inspector General for Audit

SUBJECT:                      Final Audit Report – Controls Need to Be Strengthened to Ensure the
                              Modernized e-File Project Meets Its Expectations (Audit # 200520014)

This report presents the results of our review of the Modernized e-File (MeF) project. The
overall objective of this review was to determine whether the MeF project sufficiently addressed
issues to ensure successful deployment of future releases and accurately reported its expected
benefits to external stakeholders. This review is part of the Treasury Inspector General for Tax
Administration’s Fiscal Year 2005 Information Systems Programs audit plan for reviews of the
Internal Revenue Service’s (IRS) modernization efforts.

Synopsis
Providing the capability for Internet-based filing of 330 tax return forms through the MeF system
supports and facilitates the IRS’ commitment to achieve the IRS Restructuring and Reform Act
of 19981 goal of receiving “at least 80 percent of all tax returns in electronic form by the year of
2007.” The MeF project currently has plans for seven releases2 and is currently involved in
completing development of Release 3.2. The first three releases provided an electronic filing
system for forms filed by corporations and tax-exempt organizations. The remaining releases
will add forms and schedules filed by partnerships, estates, trusts, and individuals.
Problems in meeting four performance requirements caused the project team to defer them from
MeF Release 1 to Release 3.1. During development of Release 3.1, two of these performance
requirements were met. The MeF team provided documentation showing that a third
requirement subsequently passed testing. However, the remaining performance requirement has

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A release is a specific edition of software.
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations



not met the performance specifications to display tax and information returns within stipulated
time periods. The ability to display returns within stipulated time periods will help ensure the
efficiency of IRS personnel who access returns through the MeF system.
Further, the MeF project is dependent on software developers to provide the applications
enabling the large file-size corporate return filers to use the MeF system. In January 2005, the
Department of the Treasury issued regulations mandating further electronic filing requirements
for corporations and exempt organizations.3 The corporate community expressed a negative
response by claiming the mandate presumes a level of uniformity and technological
sophistication taxpayers and the IRS may not yet have achieved. The MeF Release 3.2 includes
requirements to support increased return volumes based on projections due to the mandate. If the
MeF project is unable to meet the increased return volumes, the corporations will be unable to
meet the Department of the Treasury electronic filing requirements.
The MeF Release 3 also included the requirement to develop the Federal/State Single Point
Filing System which will permit taxpayers or practitioners to submit multiple Federal and State
return types within one transmission through the MeF system. The MeF project team realized
the scope of the Federal/State Single Point Filing System requirement and determined it could
not be supported by the existing IRS processing systems. The project split Release 3 into
Releases 3.1 and 3.2, deferring the Federal/State Single Point Filing System for delivery as part
of Release 3.2 in January 2006. The Business Systems Modernization Office (BSMO) estimates
MeF Release 3.2 deployment will cost an additional $16.3 million to include development of the
Federal/State Single Point Filing System requirement.
Although the MeF project has provided value to taxpayers and IRS processes, the project team
did not follow control processes to ensure all project requirements were developed. In addition,
system requirements were not adequately controlled, making it difficult to assess whether all
requirements were tested and delivered.
Processes to manage change requests4 do not provide reliable information to monitor project
development. Additionally, the MeF project’s Work Breakdown Structure5 does not reflect all
change request activities. Without adequate controls to implement change requests, the project
team will have difficulty allocating available resources to efficiently and effectively implement
all necessary requirements.


3
  Corporations filing at least 250 returns and with assets of $50 million or more and exempt organizations filing at
least 250 returns with assets of $100 million or more with taxable years ending on or after December 31, 2005, must
file electronically. Corporations and exempt organizations filing at least 250 returns with assets of $10 million or
more with taxable years ending on or after December 31, 2006, must file electronically.
4
  A change request is a documented request to assess the impact of a proposed change to a project’s defined
requirement or process.
5
  A work breakdown structure is a deliverable-oriented grouping of project elements that organizes and defines the
total scope of the project.
                                                                                                                   2
                        Controls Need to Be Strengthened to Ensure the
                        Modernized e-File Project Meets Its Expectations



Finally, the MeF project team did not establish a target submission date for mandatory change
requests from its IRS customers. The MeF project team is initiating plans to work with its
customers to anticipate future mandatory change requests that would affect the MeF project.

Recommendations
To help ensure the efficient and effective development of modernization projects, we
recommended the Chief Information Officer (CIO) ensure project teams follow established
guidance for managing requirements. To help manage the implementation of change requests,
the CIO should assign the Associate CIO, Enterprise Services, to update and formalize the
process to monitor change requests for use throughout the Modernization and Information
Technology Services organization. Further, guidance should be established to include change
requests into the related work breakdown structure. Additionally, to ensure the project teams are
aware of all anticipated changes affecting current system development activities, the CIO should
establish a communications process with the Legislative Analysis, Tracking, and Implementation
Services office and the business operating divisions. The BSMO should also establish deadlines
for submitting mandatory change requests to ensure it can plan for their delivery.

Response
IRS management generally agreed to four of the five report recommendations. The CIO agreed
to document implementation of all project requirements throughout the project life cycle in the
System Requirements Report and to update all requirements traceability verification matrices
beginning with MeF Release 4. The CIO agreed there were inaccuracies resulting from the
process to control change requests to the MeF project applications and has since corrected those
inaccuracies as well as provided direction to projects responsible for the maintenance and
tracking of the change requests.
The CIO agreed with the recommendation to help ensure the project team is aware of all
anticipated changes affecting current system development activities. The Electronic Tax
Administration (ETA) organization, acting as the MeF Business Requirements Director, has a
process in place to monitor the Legislative Implementation Tracking System for pending and
enacted legislation and to reflect those changes as updated business requirements. Through the
Reverse Request for Information Services process, the ETA organization reviews requests from
other projects to determine if there is an impact on the MeF project. Monitoring the possible
legislative changes as well as reviewing in-process Requests for Information Services enables the
ETA organization to help determine the prioritization schedule for delivery of business
requirements to the BSMO.
The CIO agreed with the recommendation about anticipating change requests by stating the ETA
organization follows the established Business System Development Request for Information

                                                                                                   3
                         Controls Need to Be Strengthened to Ensure the
                         Modernized e-File Project Meets Its Expectations



Services schedule, as outlined in the Internal Revenue Manual, for projects being developed by
contractors to help ensure timely implementation of change requests. The MeF project is not
explicitly listed in the Internal Revenue Manual exhibit, but the ETA organization applies this
schedule for MeF project change requests. Further, the ETA organization is establishing a Forms
Change Committee to gain management control over the annual forms change process. This
Committee expects to convene the kick-off meeting in September 2005.
The CIO disagreed with the recommendation to control change requests in the work breakdown
structure, stating the work breakdown structure is a planning tool to identify the tasks that need
to be accomplished and the relationships between those tasks. In lieu of the work breakdown
structure, the MeF project team relies on the build schedules, change request impact assessments,
and change request status sheets maintained by the project to track the implementation of change
requests and the subsequent impact on the overall project development. We are concerned these
practices may not adequately consider the effect of change requests with major staffing
implications. Additional Office of Audit comments are contained in the report. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program), at
(202) 622-8510.




                                                                                                 4
                                   Controls Need to Be Strengthened to Ensure the
                                   Modernized e-File Project Meets Its Expectations




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Modernized e-File Project Is Providing Value to Taxpayers ................Page 2
          The Project Team Did Not Follow Control Processes to Ensure
          All Modernized e-File Project Requirements Are Developed......................Page 4
                    Recommendation 1:........................................................Page 6

          Processes to Manage Change Requests Do Not Provide
          Reliable Information to Monitor Project Development ................................Page 7
                    Recommendation 2: .................................................................. Page 9

                    Recommendation 3:........................................................Page 10

          The Modernized e-File Project Team Needs to Work With
          Its Customers to Receive Change Requests Timely .....................................Page 10
                    Recommendation 4:........................................................Page 11

                    Recommendation 5:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Modernized e-File Performance Requirements ...................Page 16
          Appendix V – Enterprise Life Cycle Overview............................................Page 26
          Appendix VI – Management’s Response to the Draft Report ......................Page 31
                            Controls Need to Be Strengthened to Ensure the
                            Modernized e-File Project Meets Its Expectations




                                           Background

The Modernized e-File (MeF) project’s goal is to replace the current technology for filing
Internal Revenue Service (IRS) tax return forms with modernized, Internet-based electronic
filing applications. The MeF project aims to increase electronic filing use through a system that
is efficient and easy to access, use, and maintain. This project serves to streamline filing
processes and reduce the costs associated with the paper-based technology. Providing the
capability for Internet-based filing of 330 tax return forms through the MeF system supports and
facilitates the IRS’ commitment to achieve the IRS Restructuring and Reform Act of 19981 goal
of receiving “at least 80 percent of all tax returns in electronic form by the year of 2007.”
The MeF project currently has plans for seven releases2 and is currently involved in completing
development of Release 3.2. The first three releases provided an electronic filing system for
forms filed by corporations and tax-exempt organizations. The remaining releases will add
forms and schedules filed by partnerships, estates, trusts, and individuals. Although forms for
partnerships, estates, trusts, and individuals can be electronically filed now, the current process
has file size and standardization limitations that hinder achieving an 80 percent submission rate.
This audit is the second3 in a series of reviews of the MeF project development and deployment
activities. This review was performed at the Business Systems Modernization Office (BSMO)
facilities in New Carrollton, Maryland, during the period January through April 2005. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II. Appendix V presents an overview of the components of the
Enterprise Life Cycle.4




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A release is a specific edition of software.
3
  Modernized e-File Project Integration Difficulties Have Delayed Its Deployment (Reference Number 2004-20-072,
dated March 2004).
4
  The Enterprise Life Cycle establishes a set of repeatable processes and a system of reviews, checkpoints, and
milestones that reduce the risks of systems development and ensures alignment with the overall business strategy.
                                                                                                    Page 1
                              Controls Need to Be Strengthened to Ensure the
                              Modernized e-File Project Meets Its Expectations




                                       Results of Review

The Modernized e-File Project Is Providing Value to Taxpayers

The MeF project has made progress in developing the modernized, web-based platform for
electronically filing IRS tax return forms. The MeF project currently consists of several releases.
    •    Release 1 developed the infrastructure, application base, and support for 53 forms filed
         by corporations and 6 forms filed by exempt organizations. This Release became
         operational in February 2004.
    •    Release 2 added the remaining 44 forms associated with corporations and the public
         disclosure capabilities required by the Tax Exempt and Government Entities Division.
         This Release became operational in August 2004.
    •    Release 3.1 incorporated Return of Private Foundation or Section 4947(a)(1) Nonexempt
         Charitable Trust Treated as a Private Foundation (Form 990-PF) and the ability to file
         extensions for U.S. Corporation Income Tax Return (Form 1120) and U.S. Income Tax
         Return for an S Corporation (Form 1120S). This Release became operational in
         January 2005.
    •    Release 3.2 will add the Federal/State Single Point Filing System5 platform and the
         Federal/State components for Form 1120, Form 1120S, and Return of Organization
         Exempt From Income Tax (Form 990). This Release is planned to be operational in
         January 2006.
As of April 24, 2005, the MeF project had received and processed the following documents:
    •    A total of 229,245 corporate income tax returns and related applications for extensions of
         time to file these returns.
    •    A total of 1,903 tax-exempt organization returns and related applications for extensions
         of time to file these returns.
The value of the MeF project extends beyond providing taxpayers the ability to file returns
electronically via the Internet. The IRS also receives benefits from this electronic filing
capability. The IRS has realized processing efficiencies with the MeF project and has generally
met all processing and resource performance goals. For example, in Fiscal Year 2004 the MeF


5
  The Federal/State Single Point Filing System will permit transmitters to submit multiple Federal and State return
types within one transmission.
                                                                                                         Page 2
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations



project planned to reduce its commitment from 364.86 to 364.73 Full-Time Equivalents (FTE)6
for processing the following returns: Form 990, Short Form Return of Organization Exempt
From Income Tax (Form 990-EZ), and U.S. Income Tax Return for Certain Political
Organizations (1120-POL). It was able to realize a reduction in processing to require
only 240.27 FTEs.

MeF project development activities and applications are still being refined

In our previous audit of the MeF project, we recommended the project team deliver a project’s
physical design documentation prior to project development activities and certify the design is in
compliance with the Enterprise Architecture. Currently, the Enterprise Architecture Office does
not have a procedure for conducting engineering reviews to certify a project’s physical design.
This procedure is under development because of changes in the Enterprise Architecture Office’s
personnel.
In addition, the MeF Release 1 deferred four performance requirements. Problems in meeting
these requirements caused the project team to defer them to MeF Release 2 and then to
Release 3.1. During development of Release 3.1, two of these performance requirements were
met.
The two remaining performance requirements were deferred for completion during the
deployment of Release 3.1. The MeF team provided documentation showing that one of these
requirements passed testing during release deployment. However, the remaining performance
requirement has not met the performance specifications to display tax and information returns
within stipulated time periods. The ability to display returns within stipulated time periods will
help ensure the efficiency of IRS personnel who access returns through the MeF system.
Further, the MeF project is dependent on software developers to provide the applications
enabling the large file-size corporate return filers to use the MeF system. The MeF project team
stated the software developers were aware of the MeF Release schedule but did not develop the
software applications to facilitate electronic filing of large file-size corporate returns.
In January 2005, the Department of the Treasury issued regulations mandating further electronic
filing requirements for corporations and exempt organizations.7 There have been negative
responses to the mandate by the corporate community claiming the mandate presumes a level of

6
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For Fiscal Year 2004, 1 FTE was equal to 2,096 staff hours. For Fiscal Year 2005,
1 FTE is equal to 2,088 hours.
7
  Corporations filing at least 250 returns and with assets of $50 million or more and exempt organizations filing at
least 250 returns with assets of $100 million or more with taxable years ending on or after December 31, 2005, must
file electronically. Corporations and exempt organizations filing at least 250 returns with assets of $10 million or
more with taxable years ending on or after December 31, 2006, must file electronically.
                                                                                                        Page 3
                        Controls Need to Be Strengthened to Ensure the
                        Modernized e-File Project Meets Its Expectations



uniformity and technological sophistication taxpayers and the IRS may not yet have achieved.
The corporate community also believes the mandate fails to account for the wide variety of
computer software and technology used to prepare large businesses’ tax returns.
The IRS Commissioner stated the IRS is giving the private sector adequate time to ready itself
for the new requirements. The Commissioner also stated the Department of the Treasury had to
make the new requirement mandatory, rather than giving taxpayers an option to file
electronically, so companies would not “drag their feet.”
The MeF project team is developing requirements for Release 3.2 to support increased return
volumes based on projections due to the mandate. For corporations to meet the Department of
the Treasury electronic filing requirements, the MeF system will need to support increased return
volumes.
Originally, the MeF Release 3 included the requirement to develop the Federal/State Single Point
Filing System which will permit taxpayers and practitioners to submit multiple Federal and State
return types within one transmission through the MeF system. The MeF system will make State
submissions available for retrieval by registered State agencies.
However, the MeF project team realized the scope of the Federal/State Single Point Filing
System requirement and determined it could not be supported by the existing IRS processing
systems. Subsequently, in June 2004, the BSMO split MeF Release 3 into Releases 3.1 and 3.2,
deferring the Federal/State Single Point Filing System for delivery as part of Release 3.2 in
January 2006.
In May 2004, the BSMO reported deployment of the MeF Release 3 would cost approximately
$20 million. In February 2005, the BSMO reported the MeF Release 3.2 deployment will cost
an additional $16.3 million to include development of the Federal/State Single Point Filing
System requirement.


The Project Team Did Not Follow Control Processes to Ensure All
Modernized e-File Project Requirements Are Developed

Although the MeF project has provided value to taxpayers and efficiencies to the IRS processes,
the project team did not follow control processes to ensure all project requirements were
developed. We reviewed requirements documentation in the MeF project’s System
Requirements Report. The System Requirements Report documents a feasible, quantified,
verifiable set of requirements that define and scope the business system being developed by the
project. These requirements form the basis for the business system design, development,
integration, and deployment. The project System Requirements Report is the primary reference
for all project requirements needed to complete design and development of the business system.

                                                                                      Page 4
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations



We also reviewed the System Integration and Testing8 reports, which include the requirements
traceability verification matrices that document the specific test cases and test results for each
requirement. We compared the System Requirements Report with the System Integration and
Testing report results to determine the status of the project’s requirements.
The Enterprise Life Cycle directs project teams to verify the project requirements have been
baselined, are accounted for, and are consistent among requirement source databases and
documents. This includes matching and comparing the requirements text in the System
Requirements Report with the requirements text in the requirements traceability verification
matrices and ensuring requirements quantities are consistent among all sources. Further, the
Enterprise Life Cycle directs project teams to verify the contractor is maintaining the traceability
of project requirements for applications developed throughout the project life cycle.
From our review of the requirements traceability verification matrices, we could not determine
which requirements in the System Requirements Report were successfully tested. The MeF
project team stated requirements in the System Requirements Report are high-level requirements
and requirements in the requirements traceability verification matrices are low-level
requirements. The high-level requirements are general and further decomposed into low-level
requirements. There is not a one-to-one relationship between the requirements in the two
documents.
The project team did not have documentation tracing the high-level to the low-level
requirements. Our attempt to reconcile the requirements in the System Requirements Report to
the requirements in the requirements traceability verification matrices was unsuccessful. For
example, Table 1 presents differences in the descriptions of performance requirements9 between
the System Requirements Report and the requirements traceability verification matrices.




8
  Integration testing ensures all system components (hardware and software) are working correctly and collectively
with other related or dependent systems.
9
  A performance requirement is based on current business processing time and is considered when the technical
requirements of performance are defined.
                                                                                                       Page 5
                          Controls Need to Be Strengthened to Ensure the
                          Modernized e-File Project Meets Its Expectations



                  Table 1: Descriptions of Performance Requirements

                 Requirement Report                      Requirement Description

              System Requirements Report     Display 1 to 10 documents within 6 seconds,
                                             95 percent of the time, under sustained peak hour
                                             loads of 30 concurrent users.

              Requirements Traceability      Display up to 10 documents within 3 seconds plus
              Verification Matrices          infrastructure time.


            Source: MeF System Requirements Report, requirement MeFP.3.1 and System Integration
            and Testing Reports’ Requirements Traceability Verification Matrices, requirement NF1.3.9.

These differences occurred because the project team did not trace the System Requirements
Report to the requirements traceability verification matrices during the project testing process
and throughout the project life cycle. Further, the MeF project team did not update the System
Requirements Report with the requirements changes it made to the requirements traceability
verification matrices. A detailed description of the performance requirements in the System
Requirements Report and requirements traceability verification matrices is presented in
Appendix IV.
Because the project team did not ensure the requirements specified in the project’s System
Requirements Report were traceable to the requirements in the requirements traceability
verification matrices, the adequacy of requirements development and testing activities is difficult
to assess. Further, there is no assurance the requirements expected to be deployed are the
requirements that were actually deployed.


Recommendation
Recommendation 1: To help ensure the efficient and effective development of
modernization projects, the Chief Information Officer (CIO) should ensure project teams follow
the Enterprise Life Cycle provisions for managing requirements by tracing System Requirements
Report requirements to the requirements traceability verification matrices. In addition, the
project team should document implementation of all requirements throughout the project life
cycle in the System Requirements Report. This control will provide assurance about the
development of all requirements.
       Management’s Response: The CIO agreed with this recommendation, stating
       traceability matrices tie the detailed requirements to the test cases. The missing
       backwards/upwards traceability to the high-level requirements does not represent a
       significant risk factor to MeF Release 3.2. Therefore, since MeF Release 3.2 is already in
       flight and well into its life cycle development, and there are limited MeF project

                                                                                                  Page 6
                            Controls Need to Be Strengthened to Ensure the
                            Modernized e-File Project Meets Its Expectations



        resources available, the CIO will begin to update all requirements traceability verification
        matrices starting with MeF Release 4. Further, the CIO agreed to document
        implementation of all requirements throughout the project life cycle in the System
        Requirements Report. The CIO stated the project recognized the weakness of not
        capturing this information during MeF Release 3.1 and implemented the change prior to
        completing MeF Release 3.1 in March 2005. The MeF project team is now working to
        complete the Report column for all requirements.


Processes to Manage Change Requests Do Not Provide Reliable
Information to Monitor Project Development

Change request processing is used to manage proposed changes affecting modernization
products. The Modernization and Information Technology Services (MITS) organization has a
procedure for processing change requests.10 This procedure specifies change requests should be
submitted for control to the appropriate Configuration Management Office11 which uses the
PRIME contractor’s12 Change Request Tracking System. The project team’s configuration
management representative is responsible for monitoring the Change Request Tracking System
for change requests that may affect their project.

The MeF project team is unable to use the Change Request Tracking System to
its full potential to monitor change requests

The change request procedure involves full use of the PRIME contractor’s Change Request
Tracking System and assumes the PRIME contractor is the modernization program manager.
Because the BSMO is the program manager for the MeF project, it is unable to use the Change
Request Tracking System to its full potential to monitor and control its change requests. In
addition, access to the Change Request Tracking System was limited, causing the MeF project
team to monitor the change requests using a manual system.


10
   A change request is a documented request to assess the impact of a proposed change to a project’s defined
requirement or process.
11
   Configuration management involves establishing proper control over approved project documentation, hardware,
and software and assuring changes are authorized, controlled, and tracked. The Business Systems Modernization
(BSM) project teams work with configuration management offices staffed by the BSMO, PRIME contractor, and the
MITS organization’s Information Technology Services office. The BSM project teams also work with a
non-PRIME contractor configuration management office.
12
   To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the
PRIME contractor and integrator for the BSM program and created the BSMO to guide and oversee the work of the
PRIME contractor.
                                                                                                   Page 7
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations



The manual system involves maintaining hardcopies of the change requests, related impact
statements, and other supporting documentation in folders. When a change request is approved,
changes to the Change Request Tracking System are submitted via email from the MeF project
configuration management representative to the BSMO configuration management staff. The
configuration management staff updates the Change Request Tracking System with the approval
date.
Based on our comparison of dates in the MeF change request folders and the Change Request
Tracking System, we determined the dates in the Change Request Tracking System were not
always accurate. Because the change request folders do not include documentation about when
the change request was implemented by the contractor, we had to rely on other project
development documents to estimate when the change request was implemented.
Of the 27 Release 3.1 mandatory change requests13 submitted in Calendar Year 2004, only
22 included approval and implementation dates on the Change Request Tracking System. The
Change Request Tracking System status shows the remaining five mandatory change requests as
pending approval, although project development documentation shows they were approved and
implemented.
We found discrepancies in approval dates for 8 of 22 mandatory change requests. The
discrepancies in approval dates ranged from 5 days to almost 2 months, with an average
difference of 33 days. We also found discrepancies in the implementation dates for all
22 mandatory change requests. The discrepancies in implementation dates ranged from 4 days
to 3 months, with an average difference of 52 days.
The BSMO’s configuration management staff was reassigned on March 20, 2005, to work in the
Associate CIO, Enterprise Services, organization. In this capacity and in response to a prior
Treasury Inspector General for Tax Administration report,14 the configuration management staff
is working to develop a MITS-wide configuration management process that will include controls
for change requests. Until this process is in place, the MeF project configuration management
activities will be coordinated between the project team and the configuration management staff.
As the BSMO assumes the program manager role for more modernization projects, it needs to
update the configuration management processes to reflect this role. Without an effective process
to monitor whether change requests are timely approved and implemented, there is a potential
the project capabilities will not be effectively delivered.




13
   Mandatory change requests involve changes to the MeF system applications that must be made to accept the tax
return filings. The changes generally involve updates to tax forms for the current tax year.
14
   Additional Actions Are Needed to Establish and Maintain Controls Over Computer Hardware and Software
Changes (Reference Number 2004-20-026, dated December 2003).
                                                                                                     Page 8
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations




The MeF project’s Work Breakdown Structure does not reflect all change request
activities

The work breakdown structure15 is a tool to manage project development plans and capture the
project’s history. The various levels of the work breakdown structure help communicate the
project’s status to team members and stakeholders and identify accountability to the level of
detail required for managing and controlling the project. These levels range from the overall
project objectives (upper levels of the work breakdown structure) to the details of the project’s
work (lower levels of the work breakdown structure). The upper levels provide logical summary
points for assessing performance accomplishments, as well as measuring cost and schedule
performance.
The MeF project’s Work Breakdown Structure was not updated to reflect all of the mandatory
change requests received. We reviewed the MeF Release 3.1 mandatory change requests
submitted in Calendar Year 2004 for the 2004 tax year changes. We found the Work Breakdown
Structure included only 10 of the 27 change requests submitted.
The 17 mandatory change requests received after August 1, 2004, were not included in the Work
Breakdown Structure. The MeF project team advised there was not enough time to update the
Work Breakdown Structure with the change requests because they were submitted close to the
MeF Release 3.1 January 10, 2005, deployment date.
The MeF project team currently uses the contractor’s implementation schedules to determine
when change requests will be implemented. These schedules allow the project team to manage
the implementation of segments of the project development, including the changes requested.
These schedules do not track the resources needed to develop the project segments. Without
updating the work breakdown structure with information about the impact of implementing the
changes requested, the project team will have difficulty determining the:
     •   Allocation of available development resources to efficiently and effectively implement all
         necessary project requirements.
     •   Trends in resources needed to implement change.


Recommendations
Recommendation 2: To help manage the implementation of change requests and the
subsequent impact on the overall project development, the CIO should assign the Associate CIO,

15
  A work breakdown structure is a deliverable-oriented grouping of project elements that organizes and defines the
total scope of the project.
                                                                                                       Page 9
                            Controls Need to Be Strengthened to Ensure the
                            Modernized e-File Project Meets Its Expectations



Enterprise Services, to update and formalize the process to monitor change requests throughout
the MITS organization. These updates need to include direction for projects unable to make full
use of the PRIME contractor’s Change Request Tracking System.
        Management’s Response: The CIO agreed there were inaccuracies resulting from
        the process to control change requests to the MeF project applications and has since
        corrected those inaccuracies as well as provided direction to the projects responsible for
        the maintenance and tracking of the change requests.
Recommendation 3: To help manage the implementation of change requests and the
subsequent impact on the overall project development, the CIO should establish requirements for
including change requests into the related work breakdown structure to provide the ability to
allocate resources and provide a baseline for future change request plans.
        Management’s Response: The CIO disagreed with the recommendation to control
        change requests in the work breakdown structure, stating the work breakdown structure is
        a planning tool to identify the tasks that need to be accomplished and the relationships
        between those tasks. In lieu of the work breakdown structure, the MeF project team
        relies on the build schedules, change request impact assessments, and change request
        status sheets maintained by the project to track the implementation of change requests
        and the subsequent impact on the overall project development.
        Office of Audit Comment: The Project Management Institute describes the work
        breakdown structure as an aid to identify accountability to the level of detail required for
        managing and controlling the project. During the audit, the MeF project team stated they
        stopped doing updates to the work breakdown structure due to resource constraints;
        however, the project team now states they develop only a baseline work breakdown
        structure. This concerns us because they may not be able to adequately consider the
        effect of change requests with major staffing implications.


The Modernized e-File Project Team Needs to Work With Its
Customers to Receive Change Requests Timely

To be prepared for corporate and tax-exempt organization return filing deadlines,16 the MeF
project had to implement mandatory change requests requiring tax form changes to the MeF
application as they were received. The MeF project manager provided direction for developers
to begin work on some of the submitted mandatory change requests prior to the official approval


16
  Corporate and tax-exempt organization returns have annual filing due dates on March 15 and May 15,
respectively.
                                                                                                  Page 10
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations



to achieve a timely implementation. The project manager directed these actions because the
change requests were received late in the development cycle.
The IRS’ Legislative Analysis, Tracking, and Implementation Services office is responsible for
planning and monitoring the implementation of legislation having a significant impact on the
IRS. This office uses the Legislative Implementation Tracking System, a planning and
monitoring system for tracking the activities to implement tax legislation within the IRS.
Requests for Information Services17 are prepared for all hardware and/or software changes
(including legislative changes) to IRS systems. To be able to manage its inventory of processing
changes, the Business Systems Development organization18 has deadlines for submitting
Requests for Information Services to be able to plan and implement system changes timely.
Currently, the BSMO does not have established deadlines for submission of change requests and
does not regularly coordinate with the Legislative Analysis, Tracking, and Implementation
Services office. If the recurring change requests are not anticipated and enforced deadlines are
not established for the submission of mandatory change requests, planned requirements may be
deferred or delays may occur in the delivery of the current release.
Management Action: The project team is now taking steps to work with its customers to
anticipate future mandatory change requests that would affect the MeF project. These steps are
in process because the project was frequently reacting to the receipt of unexpected mandatory
change requests and needed to revise work plans to develop them in time for deployment.


Recommendations

Recommendation 4: To help provide an efficient and effective process for implementing
mandatory change requests, the CIO should establish a communications process with the
Legislative Analysis, Tracking, and Implementation Services office and the business operating
divisions to ensure the project teams are aware of all anticipated changes which affect current
system development activities. The process should include monitoring the Legislative
Implementation Tracking System for pending and enacted legislation and related Requests for
Information Services; participating in Legislative Analysis, Tracking, and Implementation
Services office/business operating division meetings assessing the impact of pending and enacted
legislation; and coordinating with the business operating divisions for in-process legislative
Requests for Information Services.


17
   A Request for Information Services is a formal memorandum requesting Business Systems Development
organization support for changes to current or planned programming, corporate hardware, commercial off-the-shelf
software applications, system testing, and other MITS organization activities used in processing tax information.
18
   The Business Systems Development organization defines, builds, tests, delivers, and maintains the IRS’
information systems.
                                                                                                    Page 11
                        Controls Need to Be Strengthened to Ensure the
                        Modernized e-File Project Meets Its Expectations



       Management’s Response: The CIO agreed with the recommendation to help ensure
       the project team is aware of all anticipated changes affecting current system development
       activities. The Electronic Tax Administration (ETA) organization, acting as the MeF
       Business Requirements Director, has a process in place to monitor the Legislative
       Implementation Tracking System for pending and enacted legislation and to reflect those
       changes as updated business requirements. Through the Reverse Request for Information
       Services process, the ETA organization reviews requests from other projects to determine
       if there is an impact on the MeF project. Monitoring the possible legislative changes as
       well as reviewing in-process Requests for Information Services will enable the ETA
       organization to help determine the prioritization schedule for delivery of business
       requirements to the BSMO.
Recommendation 5: To help provide an efficient and effective process for implementing
mandatory change requests, the CIO should direct the BSMO to follow the Business Systems
Development organization’s concepts of establishing deadlines for submitting and approving
Requests for Information Services to help ensure timely implementation of mandatory change
requests.
       Management’s Response: The CIO agreed with the recommendation, stating the
       ETA organization follows the established Business System Development Request for
       Information Services schedule, as outlined in the Internal Revenue Manual, for projects
       being developed by contractors to help ensure timely implementation of change requests.
       The MeF project is not explicitly listed in the Internal Revenue Manual exhibit, but the
       ETA organization applies this schedule for MeF project change requests. Further, the
       ETA organization is establishing a Forms Change Committee to gain management
       control over the annual forms change process. This Committee expects to convene the
       kick-off meeting in September 2005.




                                                                                    Page 12
                              Controls Need to Be Strengthened to Ensure the
                              Modernized e-File Project Meets Its Expectations



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Modernized e-File (MeF)
project sufficiently addressed issues to ensure successful deployment of future releases and
accurately reported its expected benefits to external stakeholders. This review is part of the
Treasury Inspector General for Tax Administration’s Fiscal Year 2005 Information Systems
Programs audit plan for reviews of the Internal Revenue Service’s modernization efforts. To
accomplish this objective, we:
I.       Determined the status of MeF releases1 to verify that planned capabilities were still
         intended to be delivered.
         A. Interviewed the MeF project team and reviewed documentation to assess project
            controls for managing MeF Release 3.12 requirements, testing, and defect reporting.
         B. Interviewed the MeF project team and reviewed documentation to determine the
            status of plans for delivering the capabilities needed for the Federal/State Single Point
            Filing System3 in MeF Release 3.2.4
         C. Interviewed the MeF project team and reviewed documentation to obtain the status of
            plans to develop and deploy the remaining MeF releases.
II.      Reviewed previously identified risks and issues to determine whether they were
         adequately resolved and their impact on the delivery of future MeF releases. To
         determine the effect of unanticipated changes to MeF Release 3.1 project development
         activities, we reviewed all 27 Release 3.1 mandatory change requests submitted in
         Calendar Year 2004. Of the 27 mandatory change requests, only 22 included approval
         and implementation dates on the Change Request Tracking System.
III.     Determined how accurately the MeF project accomplishments were reflected in
         information provided to external stakeholders.



1
  A release is a specific edition of software.
2
  Release 3.1 plans to incorporate Return of Private Foundation or Section 4947(a)(1) Nonexempt Charitable Trust
Treated as a Private Foundation (Form 990-PF) and the ability to file extensions for U.S. Corporation Income Tax
Return (Form 1120) and U.S. Income Tax Return for an S Corporation (Form 1120S).
3
  The Federal/State Single Point Filing System will permit transmitters to submit multiple Federal and State return
types within one transmission.
4
  Release 3.2 plans to add the Federal/State Single Point Filing System platform and the Federal/State components
for Form 1120, Form 1120S, and Return of Organization Exempt From Income Tax (Form 990).

                                                                                                            Page 13
                       Controls Need to Be Strengthened to Ensure the
                       Modernized e-File Project Meets Its Expectations



                                                                              Appendix II


                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Mark Carder, Senior Auditor
Michael Garcia, Senior Auditor
Beverly Tamanaha, Senior Auditor




                                                                                         Page 14
                       Controls Need to Be Strengthened to Ensure the
                       Modernized e-File Project Meets Its Expectations



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:E
Director, Stakeholder Management Division OS:CIO:SM
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 15
                             Controls Need to Be Strengthened to Ensure the
                             Modernized e-File Project Meets Its Expectations



                                                                                               Appendix IV

        Modernized e-File Performance Requirements

The following tables present the Modernized e-File (MeF) requirements contained in the current
MeF System Requirements Report (Table 1) for all releases1 and the System Integration and
Testing2 reports, which includes the Requirements Traceability Verification Matrices for
Releases 1, 2, and 3.1 (Table 2). These tables illustrate the different sets of requirements for the
MeF System.
              Table 1: System Requirements Report As of October 20, 2004

         Requirement                                        Requirement
           Number
        MeFP.1.1             The MeF System shall support the transmission of tax returns/documents
                             through the Registered User Portal3 at sustained MeF peak hour loads of
                             15 concurrent MeF transmitters, each transmitting a file of average size
                             16 megabytes, at an average speed of 1.544 megabits per second.
        MeFP.1.2             The MeF System shall support the request and delivery at the Registered User
                             Portal for a list of Electronic Taxpayer Identification Numbers4 from Third
                             Party Data Store within 5 seconds, 95 percent of the time, at sustained MeF
                             peak hour loads of 15 concurrent users.
        MeFP.1.3             The MeF System shall support the Registered User Portal’s performance at
                             sustained MeF peak hour loads of 15 concurrent users with the functions of
                             decompression, virus check, Electronic Taxpayer Identification Numbers
                             check, Test/Production Indicator Check, compression, sending to MeF.
        MeFP.1.3.1           The MeF System shall support the decompression of a Transmission File at
                             the Registered User Portal within 5 seconds, 95 percent of the time, at
                             sustained MeF peak hour loads of 15 concurrent users, with an average file
                             size of 16 megabytes.




1
  A release is a specific edition of software.
2
  Integration testing ensures all system components (hardware and software) are working correctly and collectively
with other related or dependent systems.
3
  Internet access provided to authorized third-party users.
4
  Taxpayer Identification Numbers are nine-digit numbers assigned to taxpayers for identification purposes.
Depending upon the nature of the taxpayer, it is an Employer Identification Number, a Social Security Number, or
an Individual Taxpayer Identification Number.

                                                                                                            Page 16
              Controls Need to Be Strengthened to Ensure the
              Modernized e-File Project Meets Its Expectations



Requirement                                  Requirement
  Number
MeFP.1.3.2    The MeF System shall perform the virus check at the Registered User Portal
              of a decompressed transmission file within 10 seconds, 95 percent of the time,
              under sustained MeF peak hour loads of 15 concurrent users, with an average
              file size of 35 megabytes.
MeFP.1.3.3    The MeF System shall support the Electronic Taxpayer Identification
              Numbers check and the Test/Production Indicator Check at the Registered
              User Portal within 3 seconds, 95 percent of the time, under sustained MeF
              peak hour loads of 15 concurrent users.
MeFP.1.3.4    The MeF System shall support the compression of files in the Registered User
              Portal within 5 seconds, 95 percent of the time, under sustained MeF peak
              hour loads of 15 concurrent MeF users with an average file size of
              35 megabytes (uncompressed).
MeFP.1.3.5    The MeF System shall support the transmission of a Transmission File from
              the Registered User Portal to the platform hosting the MeF Application within
              10 seconds, 95 percent of the time, under sustained MeF peak hour loads of
              15 concurrent users.
MeFP.1.3.6    The MeF System shall support sending of the Transmission File Receipt
              (Global Transaction Key) or error page to the MeF user from the Registered
              User Portal within 2 seconds, 95 percent of the time, under sustained MeF
              peak hour loads of 15 concurrent users.
MeFP.1.4      The MeF System shall support the display of fixed-content webpages, of
              average size 60 kilobytes, within 3 seconds, 95 percent of the time, under
              sustained MeF peak hour loads of 15 concurrent users.
MeFP.1.5      The MeF System shall support acknowledging secure receipt of 15 files in the
              MeF Application mailbox within 30 seconds each, 95 percent of the time, with
              an average file size of 20 kilobytes.
MeFP.1.6      The MeF System shall support the downloading of a Combined/Compressed
              acknowledgement file from the Electronic Taxpayer Identification Numbers
              secure object repository mailbox at T1 speed (1.544 megabits per second),
              95 percent of the time, under sustained MeF peak hour loads of 15 concurrent
              users.
MeFP.1.7      The MeF System shall support the compressing of 10 acknowledgement files
              per user, of average size 20 kilobytes each, within 30 seconds, 95 percent of
              the time, under sustained MeF peak hour loads of 15 concurrent users.
MeFP.2.1      The MeF System shall support the MeF Application’s validation and
              processing of Transmission Files in 6 hours, 95 percent of the time, under
              sustained MeF peak loads of 78 Transmission Files per hour.




                                                                                               Page 17
              Controls Need to Be Strengthened to Ensure the
              Modernized e-File Project Meets Its Expectations



Requirement                                  Requirement
  Number
MeFP.3.1      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 1 to 10 pages within
              6 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.2      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 11 to 50 pages within
              8 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.3      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 51 to 100 pages within
              13 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.4      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 101 to 500 pages
              within 25 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.5      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 501 to 1,500 pages
              within 45 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.6      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 1,501 to 3,000 pages
              within 80 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.7      The MeF System shall support the processing for MeF Request, Return and
              Display, of the first page of tax returns/documents with 3,001 to 36,000 pages
              within 240 seconds, 95 percent of the time, under sustained peak hour loads of
              30 concurrent users.
MeFP.3.8      The MeF System shall support the total processing time for MeF Request,
              Return and Display, for each subsequent page (after the first page) within
              3 seconds, 95 percent of the time, under sustained MeF peak hour loads of
              30 concurrent users.
MeFP.4.0      The MeF System shall support, on a peak day, the generation of the MeF
              batch reports specified in Section 7 of the Use Case Specification Version 1.7
              (run in parallel groups) within the nightly processing window between
              midnight and 6 a.m., 95 percent of the time.
MeFP.4.1      The MeF System shall support the generation of batch and on-demand reports
              under sustained loads of 50 concurrent MeF users.




                                                                                               Page 18
                    Controls Need to Be Strengthened to Ensure the
                    Modernized e-File Project Meets Its Expectations



  Requirement                                      Requirement
    Number
 MeFP.4.1.1         The MeF System shall support Internal Revenue Service (IRS) employees in
                    the Employee User Portal displaying pre-generated batch reports in the
                    display of the first page within 10 seconds, 95 percent of the time, under MeF
                    peak loads of 50 concurrent users.
 MeFP.4.1.2         The MeF System shall support IRS employees in the Employee User Portal
                    displaying pre-generated batch reports in the display of each subsequent page
                    after the first page within 3 seconds, 95 percent of the time.
 MeFP.4.1.3         The MeF System shall support the concurrent generation of on-demand
                    reports, specified in Section 7 of the Use Case Specification Version 1.7,
                    requested by 5 concurrent MeF users, within 3 minutes, 95 percent of the
                    time.
 MeFP.5.0           The MeF System shall support receipt generation of a work request
                    confirmation from the Enterprise File Transfer Protocol Network
                    Server/Enterprise File Transfer Utility for MeF file transfer requests within
                    10 seconds, 95 percent of the time, under sustained peak hour loads.


Source: MeF System Requirements Report – Performance Requirements.




                                                                                                     Page 19
                              Controls Need to Be Strengthened to Ensure the
                              Modernized e-File Project Meets Its Expectations



                        Table 2: System Integration and Testing Report,
                        Requirements Traceability Verification Matrices

      Release       Requirement                         Requirement                            Test Result
                      Number

    Release 1       SYST190            Infrastructure Shared Services shall provide        Waived
                                       Tier-2 storage area network infrastructure that
                                       can be accessed by MeF servers for read/write to
                                       direct access storage device.
                    NF1.3.2            The system shall process returns from Electronic    Deferred to
                                       Management System no later than 6 hours after       Release 2; Passed in
                                       receipt.                                            Release 3.1
                    NF1.3.3            The system shall be capable of processing tax       Deferred to
                                       returns ranging in size from 33 kilobytes for       Release 2; Deferred
                                       small returns to 351 megabytes for the large        to Release 3.1 Post
                                       returns.                                            Initial Operational
                                                                                           Capability5
                    NF1.3.4            During the first year, the MeF system shall be      Deferred to
                                       capable of processing the number of tax returns     Release 2; Passed in
                                       as specified in the MeF/Infrastructure Shared       Release 2
                                       Services Performance Requirements document.
                    NF1.3.6            The system shall scale as the database storage      Deferred to
                                       and return volumes increase based on forecasted     Release 2; Passed in
                                       increases of tax return volumes as specified in     Release 2
                                       the MeF/Infrastructure Shared Services
                                       Performance Requirements document.
                    NF1.3.7            The maximum number of supported, concurrent         Deleted
                                       users shall be 25.
                    NF1.3.8            Concurrent accesses from multiple users shall be    Deferred to
                                       supported.                                          Release 2; Passed in
                                                                                           Release 3.1




5
 Initial Operational Capability provides a set of functional and performance characteristics and threshold parameters
for the specific release of a system or application.

                                                                                                            Page 20
                        Controls Need to Be Strengthened to Ensure the
                        Modernized e-File Project Meets Its Expectations



 Release    Requirement                    Requirement                              Test Result
              Number

Release 1   NF1.3.9        The MeF System shall provide the following            Deferred to
continued                  response times for the Request and Display            Release 2; Deferred
                           application to display the Return Tree and the        to Release 3.1; and
                           first page of the return through the Employee         Deferred to Release
                           User Portal. Response time is based on the            3.1 Post Initial
                           number of documents in a return. Measurement          Operational
                           begins when the transaction reaches the web           Capability
                           server and ends when it leaves the web server on
                           the return trip. It does not include the time
                           required to connect to Database 2 (proprietary
                           IBM database software) on the Modernized Tax
                           Return Database mainframe to retrieve return
                           data. Response times, based on the maximum
                           number of documents in a return, are as follows:
                           Up to 10 documents: 3 seconds + infrastructure
                           times.
                           Up to 50 documents: 5 seconds + infrastructure
                           times.
                           Up to 100 documents: 8 seconds +
                           infrastructure times.
                           Up to 500 documents: 15 seconds +
                           infrastructure times.
                           Up to 1,500 documents: 30 seconds +
                           infrastructure times.
                           Up to 3,000 documents: 60 seconds +
                           infrastructure times.
                           Up to 36,000 documents: 220 seconds +
                           infrastructure times.
                           For subsequent forms/schedules, the system will
                           provide 2 seconds + infrastructure times
                           response times.
            NF1.5.3.1      The system shall be available 24x7 with the           Waived
                           exception of scheduled downtimes.
            NF1.5.4.9      The capability to automatically log transactions      Passed
                           to tape or disk on a continual basis to limit the
                           transactions or data lost in case of system failure
                           shall be provided.
            BUSI109        Infrastructure Shared Services shall provide          Waived
                           infrastructure that supports at peak hour the
                           workload of up to 6,600 electronically filed
                           returns, corresponding to 379 megabytes of data.




                                                                                                       Page 21
                               Controls Need to Be Strengthened to Ensure the
                               Modernized e-File Project Meets Its Expectations



        Release      Requirement                       Requirement                            Test Result
                       Number

      Release 1      BUSI110           Infrastructure Shared Services shall provide         Waived
      continued                        infrastructure that supports 24,000 authorized
                                       internal users access to electronically file
                                       Form 11206 and Form 9907 data, and related
                                       data from the Employee User Portal.
                     BUSI110.1         Infrastructure Shared Services shall provide the     Waived
                                       capability to authenticate and provide
                                       authorization for a total of 24,000 users at the
                                       Employee User Portal.
                     BUSI111           Infrastructure Shared Services shall provide         Waived
                                       infrastructure that supports a total of
                                       200 concurrent internal users access to MeF
                                       processing and/or data.
                     BUSI111.1         Infrastructure Shared Services shall provide         Waived
                                       infrastructure that supports a total of
                                       200 concurrent internal users MeF access.
                     BUSI112           Infrastructure Shared Services shall provide         Waived
                                       infrastructure that supports a total of
                                       200 concurrent external users access to
                                       MeF processing and/or data.
                     BUSI112.1         Infrastructure Shared Services shall provide         Waived
                                       infrastructure supporting 200 concurrent
                                       external users MeF access.
                     BUSI113           Infrastructure Shared Services shall provide         Waived
                                       infrastructure that supports a total of
                                       50 concurrent internal users access to
                                       MeF Business Objects reports and data.
                     BUSI114           Infrastructure Shared Services shall provide         Waived
                                       infrastructure to support the filing of returns
                                       from a total of 2,500 large corporations in a peak
                                       month with returns of an average size of
                                       20 megabytes.
                     BUSI114.1         Infrastructure Shared Services shall provide         Waived
                                       infrastructure to support the filing of returns
                                       with an average size of 20 megabytes from a
                                       total of 2,500 corporations in a peak month.



6
    Form 1120 is the U.S. Corporation Income Tax Return.
7
    Form 990 is the Return of Organization Exempt From Income Tax.

                                                                                                       Page 22
                              Controls Need to Be Strengthened to Ensure the
                              Modernized e-File Project Meets Its Expectations



      Release       Requirement                         Requirement                           Test Result
                      Number

    Release 1       BUSI115            Infrastructure Shared Services shall provide        Waived
    continued                          infrastructure to support the filing of returns
                                       from a total of 32,250 medium-sized
                                       corporations in a peak month with medium
                                       returns with average size of 2 megabytes.
                    BUSI115.1          Infrastructure Shared Services shall provide        Waived
                                       infrastructure to support the filing of returns
                                       averaging in size of 2 megabytes from a total of
                                       32,250 corporations in a peak month.
                    BUSI98.1.25        During the first year the system shall be capable   Waived
                                       of processing approximately 65,000
                                       electronically filed Forms 1120 and 1120S.8
                    BUSI98.1.25.1      Infrastructure Shared Services shall provide        Waived
                                       infrastructure to accept up to 65,000
                                       electronically filed returns and attachments.
    Release 2       NF3.2              The MeF application shall meet the baselined        Waived
                                       security requirements set by the IRS and the
                                       PRIME contractor9 to achieve security
                                       certification.
    Release 3.1     BUSI12.1           Infrastructure Shared Services shall provide the    Deferred to Release
                                       infrastructure design and implementation for the    3.1 Post Initial
                                       transmission through the Registered User Portal,    Operational
                                       of 990-PF10 forms, with transmission files          Capability
                                       containing returns of average size of 19 pages
                                       or 105.5 kilobytes (distributed 90 percent
                                       30 kilobytes, 7 percent 50 kilobytes, and
                                       3 percent 2,500 kilobytes).




8
  Form 1120S is the U.S. Income Tax Return for an S Corporation.
9
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the Business Systems Modernization program and created the Business Systems
Modernization Office to guide and oversee the work of the PRIME contractor.
10
   Form 990-PF is the Return of Private Foundation or Section 4947(a)(1) Nonexempt Charitable Trust Treated as a
Private Foundation.

                                                                                                          Page 23
                               Controls Need to Be Strengthened to Ensure the
                               Modernized e-File Project Meets Its Expectations



        Release       Requirement                       Requirement                            Test Result
                        Number

      Release 3.1     BUSI12.2          Infrastructure Shared Services shall provide the    Passed
      continued                         infrastructure design and implementation for the
                                        transmission through the Registered User Portal,
                                        of 990-PF forms, with transmission files
                                        containing returns of average size of 19 pages or
                                        105.5 kilobytes (distributed 90 percent
                                        30 kilobytes, 7 percent 50 kilobytes, and
                                        3 percent 2,500 kilobytes).
                      BUSI12.4          Infrastructure Shared Services shall support the    Passed
                                        infrastructure design and implementation for the
                                        MeF Application’s validation and processing of
                                        a file of 1 or more Form 990-PF returns for up to
                                        100 returns or 7.55 megabytes from ingestion at
                                        Registered User Portal through storing in the
                                        Modernized Tax Return Database.
                      BUSI13.1          Infrastructure Shared Services shall support the    Deferred to Release
                                        infrastructure design and implementation for the    3.1 Post Initial
                                        transmission through the Registered User Portal,    Operational
                                        of Forms 7004,11 with transmission files            Capability
                                        containing extension forms of average size of
                                        1-5 pages or 5.5 kilobytes (distributed
                                        95 percent at 5 kilobytes and 5 percent at
                                        15 kilobytes).
                      BUSI13.2          Infrastructure Shared Services shall support the    Passed
                                        infrastructure design and implementation for a
                                        peak filing of 3,000, Form 7004 applications
                                        (16.5 megabytes) in 5 days mid-March with the
                                        maximum 3,000 (16.5 megabytes) within peak
                                        hours from 8 a.m. to 10 p.m.
                      BUSI13.4          Infrastructure Shared Services shall support the    Passed
                                        infrastructure design and implementation for the
                                        MeF Application’s validation and processing of
                                        a file of 1 or more Form 7004 applications for
                                        up to 100 applications or 505 kilobytes from the
                                        placing on the MeF platform through storing in
                                        the Modernized Tax Return Database.




11
     Form 7004 is the Application for Automatic Extension of Time To File Corporation Income Tax Return.

                                                                                                           Page 24
                          Controls Need to Be Strengthened to Ensure the
                          Modernized e-File Project Meets Its Expectations



  Release       Requirement                       Requirement                           Test Result
                  Number

Release 3.1     BUSI17.2          Infrastructure Shared Services shall provide the   Passed
continued                         transmission capability for an initial extract
                                  Inventory of tax returns accumulated since
                                  Release 1 Initial Operational Capability, within
                                  30 days of Release 3.1 Initial Operational
                                  Capability for 51,000 returns of average size
                                  15 kilobytes.
                BUSI18.2          Infrastructure Shared Services shall provide the   Passed
                                  transmission capability for an initial extract
                                  Inventory of tax returns accumulated since
                                  Release 1 Initial Operational Capability, within
                                  30 days of Release 3.1 Initial Operational
                                  Capability for 51,000 returns of average size
                                  15 kilobytes.
                BUSI19.1          Infrastructure Shared Services shall provide a     Deferred to Release
                                  monthly batch file transfer capability for Tax     3.1 Post Initial
                                  Return Extract files between Modernized Tax        Operational
                                  Return Database and Electronic Tax                 Capability
                                  Administration Marketing Database using the
                                  IRS Enterprise File transfer system of up to
                                  250 megabytes per single file.
                BUSI202           Infrastructure Shared Services shall support       Passed
                                  Assurance Testing System testing using the
                                  Employee User Portal infrastructure.


Source: MeF Release 1, Release 2, and Release 3.1 Requirements Traceability Verification Matrices




                                                                                                    Page 25
                              Controls Need to Be Strengthened to Ensure the
                              Modernized e-File Project Meets Its Expectations



                                                                                                   Appendix V

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle defines the processes, products, techniques, roles, responsibilities,
policies, procedures, and standards associated with planning, executing, and managing business
change. It includes redesign of business processes; transformation of the organization; and
development, integration, deployment, and maintenance of the related information technology
applications and infrastructure. Its immediate focus is the Internal Revenue Service (IRS)
Business Systems Modernization (BSM) program. Both the IRS and the PRIME contractor1
must follow the Enterprise Life Cycle in developing/acquiring business solutions for
modernization projects.
The Enterprise Life Cycle framework is a flexible and adaptable structure within which one
plans, executes, and integrates business change. The Enterprise Life Cycle process layer was
created principally from the Computer Sciences Corporation’s Catalyst® methodology.2 It is
intended to improve the acquisition, use, and management of information technology within the
IRS; facilitate management of large-scale business change; and enhance the methods of decision
making and information sharing. Other components and extensions were added as needed to
meet the specific needs of the IRS BSM program.


Enterprise Life Cycle Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The Enterprise Life Cycle
methodology includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
   business change.
Management Processes, which are organized into management areas and operate across the
  entire life cycle.



1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.

                                                                                                              Page 26
                                                     Controls Need to Be Strengthened to Ensure the
                                                     Modernized e-File Project Meets Its Expectations



                                                        Enterprise Life-Cycle Processes


                                    IRS Governance and Investment Decision Management
  Management




                                             Program Management and Project Management

                                    Architectural Engineering / Development Coordination

                                                         Management Support Processes


                                                                                                     Business Processes




                                                                                                                              Operations & Support
                                                                                                             Applications
                Vision & Strategy




                                                         Development
                                      Architecture




                                                                                     Deployment
                                                                       Integration
  Life Cycle




                                                                                                                     Data


                                                                                                  Organizational Change


                                                                                                  Technical Infrastructure


                                                                                                  Facilities Infrastructure


Source: Enterprise Life Cycle Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the Enterprise Life Cycle are divided into six phases, as described
below:
         •     Vision and Strategy - This phase establishes the overall direction and priorities for
               business change for the enterprise. It also identifies and prioritizes the business or system
               areas for further analysis.




                                                                                                                                                 Page 27
                         Controls Need to Be Strengthened to Ensure the
                         Modernized e-File Project Meets Its Expectations



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.


Management Processes

Besides the life-cycle processes, the Enterprise Life Cycle also addresses the various
management areas at the process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its


                                                                                            Page 28
                         Controls Need to Be Strengthened to Ensure the
                         Modernized e-File Project Meets Its Expectations



       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.


Milestones

The Enterprise Life Cycle establishes a set of repeatable processes and a system of milestones,
checkpoints, and reviews that reduce the risks of system development, accelerate the delivery of
business solutions, and ensure alignment with the overall business strategy. The Enterprise Life
Cycle defines a series of milestones in the life-cycle processes. Milestones provide for “go/no-
go” decision points in the project and are sometimes associated with funding approval to
proceed. They occur at natural breaks in the process where there is new information regarding
costs, benefits, and risks and where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the enterprise architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.




                                                                                           Page 29
                     Controls Need to Be Strengthened to Ensure the
                     Modernized e-File Project Meets Its Expectations



•   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
    leading up to Milestone 3, the major components of the business solution are analyzed
    and designed. A baseline business case is also produced. The primary decision at
    Milestone 3 is to accept the logical system design and associated plans and to authorize
    funding for development, test, and (if chosen) pilot of that solution.
•   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
    In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
    activities are separated by two checkpoints. Activities leading up to Milestone 4A
    involve further requirements definition, production of the system’s physical design, and
    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                        Page 30
        Controls Need to Be Strengthened to Ensure the
        Modernized e-File Project Meets Its Expectations



                                                   Appendix VI

Management’s Response to the Draft Report




                                                           Page 31
Controls Need to Be Strengthened to Ensure the
Modernized e-File Project Meets Its Expectations




                                                   Page 32
Controls Need to Be Strengthened to Ensure the
Modernized e-File Project Meets Its Expectations




                                                   Page 33
Controls Need to Be Strengthened to Ensure the
Modernized e-File Project Meets Its Expectations




                                                   Page 34
Controls Need to Be Strengthened to Ensure the
Modernized e-File Project Meets Its Expectations




                                                   Page 35
Controls Need to Be Strengthened to Ensure the
Modernized e-File Project Meets Its Expectations




                                                   Page 36
Controls Need to Be Strengthened to Ensure the
Modernized e-File Project Meets Its Expectations




                                                   Page 37
